HHS/OIG-Audit--"Review of Journal Voucher Cost Transfers Processed by the New York State Department of Social Services Albany, New York for the Period April 1, 1992 through March 31, 1994 (CIN A-02-95-02004)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Journal Voucher Cost Transfers Processed by the New York State Department of Social Services Albany,
New York for the Period April 1, 1992 through March 31, 1994" (A-02-95-02004)
October 2, 1996
Complete
Text of Report is available in PDF format (1.09 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We examined 64 journal vouchers which transferred costs totaling $15,987,791 in the period covered by our review. In general,
the transfers we reviewed were adequately documented and proper. However, we found posting errors on 11 of the 64 transfers
reviewed which resulted in overcharges of $466,268 to Federal programs ($158,911 Federal share), as detailed in the Findings
and Recommendations section of this report. We also found during this review that NYSDSS charged the Federal Government
$8,872 ($4,913 Federal share) of unallowable interest costs, as discussed in the OTHER MATTERS section of this report.
Overall, we recommend that NYSDSS refund $163,824 to the Federal Government. Further, we recommend that NYSDSS (1) closely
review the appropriateness of each future cost transfer before reallocating the costs and (2) refund the unallowable interest
costs claimed subsequent to our audit period.
The NYSDSS responded to our draft audit report on September 16, 1996. In its response, NYSDSS agreed with our findings
and recommendations except for the unallowable interest costs.